REGIONAL OFFICES
84 HARLOW ST. 2ND FLOOR
BANGOR, MAINE 04401

AARON M. FREY TEL: (207) 941-3070

 

ATTORNEY GENERAL FAX: (207) 941-3075
125 PRESUMPSCOT ST., STE. 26
PORTLAND, MAINE 04103
STATE OF MAINE TEL: (207) 822-0260
22-0259
OFFICE OF THE ATTORNEY GENERAL BEG Cone
TEL: (207) 626-8800 6 STATE HOUSE STATION 14 AccESs HIGHWAY, STE. 1
TTY USERS CALL MAINE RELAY 711 AUGUSTA, MAINE 04333-0006 CARIBOU, MAINE 04736

TEL: (207) 496-3792
FAX: (207) 496-3291

March 26, 2021

Scott Harris, Clerk

Supreme Court of the United States
Office of the Clerk

1 First Street, NE

Washington, DC 20543-0001

Re: David Carson, et al. v. A. Pender Makin, No. 20-1088
Dear Mr. Harris:

Iam writing to request a thirty-day enlargement of the deadline by which Respondent
must respond to Petitioners’ Petition for Writ of Certiorari.

Respondent initially waived her right to respond to the Petition. On March 22, 2021, the
Court requested a response to the Petition by April 21, 2021. Due to the press of other business,
undersigned counsel anticipates that she will need additional time to prepare a response to the
Petition. Accordingly, Respondent requests that the deadline to respond to the Petition be
enlarged until May 21, 2021.

I contacted Michael Eugene Bindas, counsel for the Petitioners, regarding this request,
and he responded that I may represent that Petitioners do not oppose the request.

Very truly yours,

Sorbo ft Feute [ ¥.

Cc
Sarah A. Forster T
Assistant Attorney General

ce: Michael Eugene Bindas, Esq.
